No.

Supreme Court, U.S.
FILED

2l-

JUN 0 9 2921
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

BRENDA SUE COOK,

- Petitioner

v.

STATE OF WEST VIRGINIA - Respondent

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES SUPREME COURT OF APPEALS
FOR THE FOURTH CIRCUIT

Brenda Sue Cook, pro se
Lakin Correctional Center & Jail
11264 Ohio River Road
West Columbia, WV 25287
(304) 674-2440

QUESTIONS PRESENTED

I.

Has the Petitioner’s Fifth, Sixth, and Fourteenth Amendment right to an impartial jury
been violated when the court erred in allowing juror, Victor Owens, who called the
Petitioner a “murderer” in 2011 in reference to State v. Cook, 204 W. Va. 591, 515 S.E.2d
127 (1999) to remain on the jury when an alternate juror was available and had never
been excused from the jury at the time of the Petitioner’s objection?

II.

Has the Petitioner’s Fifth, Sixth, and Fourteenth Amendment right to an impartial jury
been violated when the court erred in allowing the juror, Victor Owens, to omit in voir
dire questioning that he had prejudicial knowledge of the Petitioner, Brenda Cook and the
Petitioner’s witness Frank Brent?

III.

Has the Petitioner’s Fifth, Sixth, and Fourteenth Amendment right to an impartial jury
been violated when the court denied the Petitioner’s attorney’s request the biased juror,
Victor Owens, approach the bench for questioning?

IV. Has the Petitioner’s Fourteenth Amendment right to due process been violated when
the court erred by allowing the State to introduce 404(b) evidence but disallowed the
Petitioner’s 404(b) rebuttal evidence?

V.

Has the Petitioner’s Fourteenth Amendment right to due process been violated when the
court erred in not allowing the Petitioner’s Expert Witness, Craig Corkrean, to testify at
the trial even though the Circuit Court agreed at the Discovery Hearing four months prior
to the trial that the Expert Witness would be allowed to testify?
Page | ii

LIST OF PARTIES
Brenda Sue Cook, Inmate at Lakin Correctional Center in West Columbia, West Virginia,
Petitioner
State of West Virginia
Respondent

Page | iii

INDEX OF APPENDICES

Appendix A

Decision of WV State Supreme Court of Appeals
Filed: December 16,2020

Appendix B

Decision of State Trial Court
Twenty-First Circuit Court Trial
Sentencing Order

Appendix C

Order of State Supreme Court Denying Rehearing
Filed: March 18, 2021

Appendix D

Trial Transcript March 26-29, 2019 (Reference I, II, & III - Biased Juror)
Page 16 - Lines 15-24
Page 17 - Lines 1-24
Page 18 - Lines 1-2
Page 18 - Lines 21-24
Page 20 - Lines 11-24

Appendix E

Trial Transcript
Page 27 - Lines
Page 28 - Lines
Page 29 - Lines

Appendix F

Discovery Hearing Transcript December 17, 2018 (Reference V —
Expert Witness)
Page 13 - Lines 22-24

Appendix G

Trial Transcript March 26 - 29, 2019 (Reference V - Expert Witness)
Page 464 - Lines 17-24
Page 465 - Lines 1-9

Appendix H

Frank Brent’s Affidavit

Appendix I

404 (b) Order January 4, 2019 (Reference IV - 404 b - Evidence)

Appendix J

Signed Statement from Prosecuting Attorney on 404(b) rebuttal evidence

Appendix K

Signed Statement from Judge Lynn Nelson’s office on 404(b) rebuttal evidence

Appendix L

Digital Forensic Investigator (Expert Witness) Report
Page 25 of report

March 26 - 29, 2019 (Reference I, II, & III - Alternate Juror)
1-24
1-24
1-3

Page | iv

TABLE OF CONTENTS

Questions Presented

ii

List of Parties

iii

Index of Appendices

iv

Table of Authorities..... ..........................

vi

(Cases, Rules, Constitutional Provisions)

Opinions Below.......................................

vii

Jurisdiction

vii

Statement of the Case

1

Reasons for Granting the Petition

11

Conclusion

13

Word Count Certificate

13

Certificate of Service

14

Page|v

TABLE OF AUTHORITIES

Cases

Conaway v. Polk, 2008 U.S. Dist. LEXIS 87702

3

McDonough Power Equipment v. Greenwood, 464 U.S. 548

4

Porter v. Zook, 898 F.3d 408, 2018 U.S

4

State v. Cook, 204 W. Va. 591. 515 S.E.2d 127 119991.................................................

1

United States v. Thompson, 744 F.2d 1065,1068 (4th Cir. 1984); Fed.R.Crim.P. 24(c)

1

Rules
Federal Rules of Criminal Procedure - Jury or Non-Jury Trial Rule 23

2

Federal Rules of Evidence Rule 702: Testimony by Expert Witnesses

7,11

Constitutional Provisions
Amendment V
Amendment VI
Amendment XIV

Page | vi

OPINIONS BELOW
State of West Virginia, Plaintiff Below, Respondent vs. Brenda Cook, Defendant Below,
Petitioner
SUPREME COURT OF APPEALS OF WEST VIRGINIA
Petition for Rehearing & Mandate
Filed March 16,2021
State of West Virginia, Plaintiff Below, Respondent vs. Brenda Cook, Defendant Below,
Petitioner
SUPREME COURT OF APPEALS OF WEST VIRGINIA
2020 W. Va. LEXIS 949
No. 19-0635
TWENTY-FIRST CIRCUIT TRIAL COURT
Circuit Court of Grant County
Case# 17-F-66

JURISDICTION
Supreme Court of Appeals of West Virginia
Petition for Rehearing
March 18, 2021, Filed, Issued

Supreme Court of Appeals of West Virginia
December 16,2020, Filed, Issued

Twenty-First Circuit Court
Sentencing Hearing / Order
June 6, 2019

Twenty-First Circuit Trial Court
March 26 - March 29,2019

Page | vii

STATEMENT OF THE CASE

I.

Has the Petitioner’s Fifth, Sixth, and Fourteenth Amendment right to an impartial jury
been violated when the court erred in allowing juror, Victor Owens, who called the
Petitioner a “murderer” in 2011 in reference to State v. Cook, 204 W. Va. 591, 515 S.E.2d
127 (1999) to remain on the jury when an alternate juror was available and had never
been excused from the jury at the time of the Petitioner’s attorney’s objection?
In the instance of a_biased juror, that juror "can be dismissed and
replaced with an alternate juror." United States v. Thompson, 744
F.2d 1065. 1068 (4th Cir. 1984); Fed.R.Crim.P. 24(c). Here, the
judge did just that--he removed the juror and replaced him with an
alternate juror, a measure which eliminated the prejudice of the juror
knowing a witness, but did not necessitate the expense and delay of a
mistrial.
The court failed by not removing the juror, Victor Owens from the jury and
replacing with the alternate juror. The juror, Victor Owens engaged in a “heated
discussion” with one of the Petitioner’s witnesses, Frank Brent, while working together in
2011 concerning the Petitioner, Brenda Cook. The juror called the Petitioner a
“murderer”. Once the Petitioner’s attorney was made aware of the incident, he requested
the court to remove the juror, Victor Owens from the jury and be replaced with the
alternate juror. The alternate juror had not been excused from the jury at the time of this
request by the Petitioner’s attorney.
The Court misrepresented the facts when it stated the alternate juror was seen
“encouraging the Defendant”. The Prosecuting Attorney commented after the alternate
juror was released from the jury she went and sit down on the Defendant’s side and was

Page| 1

seen talking to the friends of the Defendant and he described the alternate juror as being
“tainted” for being the reason she was not used to replace the biased juror. The alternate
juror, Leslie Clark, was picked out of a selection of two people left to choose from
during jury selection. The other person, Jacquelyn Kessel, stated she had worked with
the Defendant’s father-in-law and wasn’t sure she could be “fair and impartial”. So the
Defendant’s attorney chose Leslie Clark as the alternate (See Appendix E). At the time
of the Defendant’s request to remove the biased juror from the jury the alternate was still
seated with the jury. The Court’s remark that the alternate juror was tainted was false
information since the process was she was released from the jury first and then came
back into the courtroom and sit down at the first available seat, which happened to be on
the Defendant’s side of the room. The alternate juror and the Defendant did not know
each other and did not speak to each other.
If the Court felt the alternate juror was tainted the trial could have proceeded
using a jury of eleven according to the Federal Rules of Criminal Procedure - Jury or
Non-Jury Trial Rule 23. The court again misrepresented the facts. The court denied the
request to use the alternate juror.
The Court stated the Defendant could have recalled the witness, Frank Brent to
the stand to confirm the altercation between him and the juror, Victor Owens. The
Defendant’s attorney had filed a Motion in Limine before the trial began to eliminate
anyone discussing the murder trial in 1997. There were family members and friends of
the jury in the courtroom and the jury was at no time sequestered during the trial.
The Court approved the submission of Frank Brent’s notarized affidavit as part of
the Defendant’s brief. The affidavit confirmed the juror had called the Defendant a

Page|2

“murderer” in 2011 when they were working together (See Appendix H). The court erred
by denying the appeal and the Defendant’s right to an impartial jury.

II.

Has the Petitioner’s Fifth, Sixth, and Fourteenth Amendment right to an impartial jury
been violated when the court erred in allowing the juror, Victor Owens, to omit in voir
dire questioning that he had prejudicial knowledge of the Petitioner, Brenda Cook and the
Petitioner’s witness Frank Brent?
The court erred in allowing the juror Victor Owens to remain on the jury when he
lied by omission during the voir dire questioning. During the voir dire questioning, the
juror Victor Owens only admitted to knowing the Prosecuting Attorney; however, he
failed to admit he knew the Petitioner Brenda Cook or his former co-worker Frank Brent
who was one of the Petitioner’s witnesses. Juror Victor Owens and Frank Brent had
worked together for several years and a heated discussion occurred when the name
“Brenda Cook” came up at work and Mr. Owens called Ms. Cook a “murderer”.
In Conaway v. Polk, 2008 U.S. Dist. LEXIS 87702
“The text of the Sixth Amendment mandates that in all criminal
prosecutions, the accused shall enjoy the right to a trial by an impartial
jury. U.S. Const, amend. VI. And the U.S. Supreme Court has long
recognized that the Sixth Amendment prohibits biased jurors from serving
on criminal juries. The Sixth Amendment's text prohibits partial jurors,
whether bias is actual or implied. A juror's bias may be established by
showing (1) that the juror failed to answer honestly a material question on
voir dire; and (2) that a correct response to that question would have
provided a valid basis for a challenge for cause. Additionally, a litigant
must show that the fairness of his trial was affected either by the juror's
motives for concealing the information or the reasons that affect the juror's
impartiality.”
The juror, Victor Owens “failed to answer honestly a material question on voir dire”
when asked if any of the jurors knew the Defendant, Brenda Cook and the witness,
Page|3

Frank Brent (See Appendix D). A “correct response to that question would have
provided a valid basis for a challenge for cause”.
McDonough Power Equipment v. Greenwood, 464 U.S. 548 states:
“The failure of a juror to folly and truthfully answer questions
propounded to the panel is deemed reversible error upon a showing of
probable bias of the juror with consequential prejudice to the unsuccessful
litigant. The withholding of insignificant or trifling information indicative
of only a remote or speculative influence on the juror is not deemed
prejudicial. A new trial is required, however, if the suppressed information
is of sufficient cogency and significance to cause us to believe that counsel
was entitled to know of it when he came to exercise his right of
peremptory challenge
The Court of Appeals reversed, holding that the
juror's failure to respond affirmatively to the question on voir dire had
prejudiced respondents' right of peremptory challenge.”

III. Has the Petitioner’s Fifth, Sixth, and Fourteenth Amendment right to an impartial jury
been violated when the court denied the Petitioner’s attorney’s request the biased juror,
Victor Owens, approach the bench for questioning?
The court erred in not granting the Petitioner’s attorney’s request of having the
juror, Victor Owens, approach the bench for further questioning (See Appendix A Page 3).
The United States Court of Appeals For The Fourth District case Porter v. Zook,
F.3d 408. 2018 U.S. decided the following:
“OVERVIEW: HOLDINGS: [1 ]-In dismissing the actual juror bias
claim of the 28 U.S.C.S. 2254 petitioner—who was convicted in
Virginia state court of capital murder and was sentenced to death—the
district court failed to recognize the applicability of U.S. Supreme
Court precedent requiring a hearing in the circumstances, erected
inappropriate legal barriers and faulted petitioner for not overcoming
them, and ignored judicially-recognized factors in determining
whether a hearing was necessary;.... ”

Page 14

“The Sixth Amendment, made applicable to the states through the
Fourteenth Amendment, requires that a state provide an impartial jury
in all criminal prosecutions. If even one partial juror is empaneled and
the death sentence is imposed, the State is disentitled to execute the
sentence. The remedy for allegations of juror partiality is a hearing in
which the Defendant has the opportunity to prove actual bias. And
preservation of the opportunity to prove actual bias is a guarantee of a
Defendant's right to an impartial jury.”

IV.

Has the Petitioner’s Fourteenth (XIV) Amendment right to due process been
violated when the court erred by allowing the State to introduce
404(b) evidence but disallowed the Petitioner’s 404(b) rebuttal evidence?
The court erred in allowing the State to use the checks from 2006 - 2011 as
404(b) evidence “as proof of intent, motive, common scheme, plan, or absence of
mistake” and not allowing her to use her 404(b) rebuttal evidence in the form of a threering binder. The rebuttal evidence was a spreadsheet started by the Defendant in 2006 on
a flash drive at her place of employment. The court’s statement that the Defendant was
indicted the first time on $116,628 was false. The Defendant was never indicted on this
amount nor the applicants for the years of 2006-2011. She was originally indicted on
$22,400 for the months of July and August 2012 applicants only.
The 404(b) hearing was held on January 4, 2019 (See Appendix I). There was no
deadline date ordered for submission of rebuttal evidence at this hearing. The order
states on Page 2 the following:
“Therefore, the State advised the Court that the hearing on December 17th, 2018,
involved many issues; that the State had taken notes in anticipation of doing the order;
that the State had drafted a proposed order; that the order was forwarded to Defense
Counsel for edification; that the differences between what the State believed was the
Court’s ruling and what the Defense believed the Court’s ruling was, were significant and
Page|5

both the State and Defense Counsel requested that the Court direct its clerk to review the
rulings of the Court on that day, and prepare an appropriate order with regard to the
Motion in Limine and any other rulings made by the Court that day.”

An “Amended Order Regarding Pre-Trial Hearing Motions” was completed by
the State and the Defendant’s attorney received the order ten days prior to the trial. It
was filed by the Circuit Court Clerk on March 26, 2019 (beginning day of trial). Due to
the late completion and mailing of the Amended Order by the State, the Defendant’s
attorney had only a few days to decipher what discovery material could be used in the
Defendant’s defense. The court erred by not allowing the Petitioner’s three-ring binder
containing receipts and a spreadsheet accounting for the money reimbursed to the
petitioner during the years of 2006-2011 to be admitted as evidence. The Petitioner
believed her first attorney had submitted this material to the court as part of the discovery
material in June 2017. This case was dismissed in August 2017 due to the way the Grand
Jury Indictment was written; however once the Petitioner was indicted a second time by
the second prosecuting attorney the court agreed neither party had to resubmit the
paperwork. One week prior to the trial in March 2019, the Prosecuting Attorney told the
Petitioner’s attorney he had not received the 404(b) evidence. The Petitioner handdelivered a copy of the 404(b) evidence to both the Prosecuting Attorney and the court.
Both the Prosecuting Attorney and the Judge’s secretary signed a statement on March 18,
2019 they had received the 404(b) rebuttal evidence (See Appendix J and Appendix K).
During the trial, the court denied the 404(b) material in a 3-ring binder, as evidence
because the Prosecuting Attorney stated it had not been submitted in a timely manner;
however, he accepted and signed for the 3-ring binder. The court erred in denying the
petitioner the right to due process.
Page|6

V.

Has the Petitioner’s Fourteenth (XIV) Amendment right to due process of the law been
violated when the court erred in not allowing the Petitioner’s Expert Witness, Craig
Corkrean, to testify at the trial even though the Circuit Court agreed at the Discovery
Hearing four months prior to the trial that the Expert Witness would be allowed to
testify?
Federal Rules of Evidence Rule 702: Testimony by Expert Witnesses states as
follows:
“A witness who is qualified as an expert by knowledge, skill, experience, training,
or education may testify in the form of an opinion or otherwise if:
(a) the experts scientific, technical, or other specialized knowledge will help the
trier of fact to understand the evidence or to determine a fact in issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles and methods; and
(d) the expert has reliably applied the principles and methods to the facts of the
case.”

The Petitioner’s right to due process of law was violated when the court erred in not
allowing the “expert witness”, Craig Corkrean, to testify at the Circuit Court trial. The
court erred when they stated, “the [c]ourt finds that the testimony of [Mr. Corkrean] is
unnecessary and irrelevant”. Mr. Corkrean is a “Qualified Digital Extraction and
Analysis Expert by the U.S. District Court for the Northern District”. He also holds the
following degrees and licenses:
• Owner of Digital Forensics Investigations, LLC
• Graduate of FBI National Academy
• Graduate of WV State Police Academy
• Masters of Science Degree in Digital Forensics
• Masters of Science Degree in Criminal Justice
• FBI and West Virginia Certified Instructor in Crime Scene Processing
• Chief of Police in Glenville, WV
Page|7

The expert witness would have used his specialized knowledge in explaining his
findings of a specific document named “Family Support Award Letter” and the “Family
Support Contract” on the computer, which had been accessed on four different occasions
before the Inspector General’s Office was notified to do an investigation and multiple
times throughout the years after the Defendant’s termination. The Family Support
Contract accounted for eight (8) of the twenty-two (22) guilty verdicts against the
Defendant. Had Mr. Corkrean been allowed to testify it would have helped “the trier of
fact to understand the evidence or to determine a fact in issue”. The documents presented
by the prosecutor as evidence showed various times they had been altered.
The Petitioner’s attorney requested multiple times the “original” documents be
submitted to the Petitioner before the trial but only received the altered “copied” version.
The Prosecutor stated it was impossible for the computer to print two different
colored inks and proves he had limited knowledge of computer technology. The act of
cutting and pasting documents was clearly done on the documents they submitted as
evidence. The correct way of completing a Family Support Contract page meant the top
portion of the Family Support Contract was completed on the computer with the name of
the recipient and the name of the vendor. This document was accessed and modified
after the Defendant was terminated. The Defendant relied on the testimony of Mr.
Corkrean to demonstrate this process. Eight (8) of the twenty-two (22) felonies was
attributed to this document. By not allowing the expert witness to testify and the court
committing this error, it denied the Defendant a fair trial and due process.

Page|8

The Circuit Court judge agreed after six (6) years of requesting by the
Petitioner’s attorney that the Petitioner’s computer at work be analyzed. The court stated
the State of West Virginia would not pay for the forensic analysis. The Petitioner agreed
to pay the cost of $11,000. The Petitioner believed she was being retaliated against for
reporting Medicaid Fraud, being committed by certain employees, to her supervisor, the
Director of Potomac Highlands Guild, Inc. The Guild employee, Brandon Judy testified
he found no Medicaid fraud reports on the computer. Even though Brandon Judy was
one of the Defendant’s witnesses he lied on the witness stand and Mr. Corkrean could
have proven it. These reports were found by Craig Corkrean on the computer; however,
he was not allowed to testify to their validity. The court misunderstood the facts. The
Medicaid fraud reports were in relation to The Potomac Highlands Guild overbilling. In
additional to the overbilling PHG used the targeted funds intended for the Family Support
Program for the agency’s operational expenses which was illegal without prior approval
from the State. This caused a delay in the applicants getting their funds, which led the
Defendant to use her personal funds to help the applicants. The Defendant had the
Executive Director’s approval. Unfortunately, the Executive Director got Alzheimer’s
and was unable to testify at court.
During the Discovery Hearing in December 2018, it was agreed by the court to
allow the expert witness, Craig Corkrean, to testify at the trial (See Appendix F);
however, on the day he was to testify the court stated he would not be allowed (See
Appendix G). Mr. Corkrean would have also testified to the fact the computer was kept
in operation by Potomac Highlands Guild for six and one-half (6 Vi) years and the
documents to prove the Petitioner’s innocence had been accessed and/or altered four
Page | 9

times within four months (not “one month” as believed and stated by the court) of the
Petitioner being suspended in December 2012 until the time The Potomac Highlands
Guild contacted the Medicaid Fraud Unit in March 2013 for an investigation. The
computer log-in during these times were logged in under the Petitioner’s name and
password and was continuously used for several years after her suspension. Mr.
Corkrean’s Digital Forensic Investigations Report states (See Appendix L - Page 25):
“there was over 100,000 files on the Dell’s hard drive with a
modified date after Brenda Cook’s termination date in December
of 2012, it appears the computer continued to be used by other
unknown individuals, who accessed Brenda Cook’s user profile as
recently as March of 2018 and even opened and modified files.”

Mr. Corkrean’s testimony would have proved relevancy and most definitely shown it was
necessary in proving the Defendant’s innocence by proving the computer was tampered
with and documents modified after the Defendant was terminated. This violated the
Defendant’s due process to a fair trial.

Page|10

REASONS FOR GRANTING THE PETITION

1)

The Petitioner’s Constitutional Right (Amendment V, Amendment VI, and Amendment
XIV) to an impartial jury was violated based on the court’s decision to keep a biased
juror on the jury. The Petitioner’s second-degree murder conviction in August 1997 was
“vacated and remanded” by the Supreme Court of Appeals of West Virginia in the Spring
of 1999. The Petitioner’s trial in 2019 had no relationship to the one held in 1997;
however, a juror who showed bias toward the petitioner in 2011 when he called her a
“murderer”, was permitted to stay on the jury by the court.

2)

The Petitioner’s Constitutional Right (Amendment VI) to an impartial jury was violated
based on the court’s decision to keep a juror on the jury when in voir dire questioning he
omitted the fact that he knew the Defendant, Brenda Cook and a witness, Frank Brent. It
was clear the juror was biased toward the Defendant in 2011, which was fourteen (14)
years after the murder trial in 1997 when he called the Defendant a “murderer”. If he did
not forget about the incident after that amount of time, he would have still remembered it
in 2019, which was only eight (8) years after his “heated discussion” with the witness,
Frank Brent and his remarks about the Defendant.

3)

The Petitioner’s Constitutional Right (Amendment V, Amendment VI, and Amendment
XIV) to an impartial jury was violated when the Court denied the Petitioner’s Attorney’s
request the biased juror approach the bench for questioning.

4)

The Petitioner’s Constitutional Right (Amendment XIV) to due process was violated
when she was not allowed to present her 404(b) rebuttal evidence in the form of a 3-ring
binder, at trial when a copy had been given to the first prosecuting attorney in June 2017.
Page|11

The first indictment was dismissed by the court in August 2017. The new prosecuting
attorney in November 2017, with the court’s approval, agreed the paperwork did not need
to be recopied for either party. One week prior to the trial the prosecuting attorney stated
he did not have the 404(b) rebuttal evidence. The State typed up the 404(b) Order for
January 4,2019 and provided wrong information. The order was amended; however, it
was not provided to the Defendant’s attorney until ten (10) days prior to the trial. The
Defendant then hand-delivered a copy of the 404(b) rebuttal evidence from the 3-ring
binder to both the prosecuting attorney and the court’s secretary. At trial, the
prosecuting attorney objected to the submission of the 404(b) rebuttal evidence and the
court agreed because it was given to them one week prior to the trial. Both the
Prosecuting Attorney and the court’s secretary signed to accept the 3-ring binder and it
should have been allowed in the trial as 404(b) rebuttal evidence. The court erred in not
allowing the 404(b) rebuttal evidence into trial.
5)

The Petitioner’s Constitutional Right (Amendment XIV) was violated when her “expert
witness” was not allowed to testify at the trial when he had already been approved by the
court at the discovery hearing four months prior to the trial. The expert witness
completed a 25-page report and was prepared to explain it to the jury. This trial was
based on paper documents that originated from the computer. The court erred when they
stated, “the [cjourt finds that the testimony of [Mr. Corkrean] is unnecessary and
irrelevant”. When in reality, the evidence and testimony of Mr. Corkrean would indeed
provide “the trier of fact to understand the evidence or to determine a fact in issue” as
stated in The Federal Rules of Evidence Rule #702.

Page|12

CONCLUSION

The Petitioner, Brenda Sue Cook, requests a Writ of Certiorari be granted on the issues outlined
above. The proper relief on Issues I through V is to vacate the convictions and remand for a new
trial.

Respectfully submitted this

rJjnJtf

day of

, 2021

Brenda Sue Cook, Petitioner, Pro se

WORD COUNT CERTIFICATE

4832

Page|13

VERIFICATION
jla S. too K , pro se, hereby verify that the facts and allegations stated in
I,
the foregoing documents are made in good faith, and are true and accurate to the best of my
knowledge and belief.

y3h?/Vi//^ lA OnrK
Signature of Petitioner

3S'mo9
OID#

Date

ACKNOWLEDGEMENT
The foregoing instrument was acknowledged before me this day, by whom is personally
known to me or who has produced West Virginia Division of Corrections Identification.

IN THE STATE OF WEST VIRGINIA}
COUNTY OF -MASON} to wit;

Taken, sworn, and subscribed to before me on this

Notary Public

o)m4 day,

the month of June. 20

OFFICIAL SEAL
Susan Birdsong
Lakin Correctional Center
11264 Ohio River Road
West Columbia. WV 25287

My Commission expires:

a

Brenda S. Cook
Page|15

i

)

